GR-90-98-025
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE CITY OF RENO CONSORTIUM, NEVADA
 GR-90-98-025
 MAY 1998
 
 
EXECUTIVE SUMMARY
 
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Reno Consortium (Consortium). The Consortium,
which includes: Reno Police Department (RPD), Washoe County Sheriffs Office (WCSO), and
University of Nevada Police Department (UNPD), received a grant of $779,132 to purchase
equipment and hire civilians in order to redeploy 32.4 officer full-time equivalents
(FTEs) under the COPS Making Officer Redeployment Effective program for 1995 (MORE 95).
The purpose of the additional officer (FTEs) under the MORE 95 grant program is to enhance
community policing efforts. 
In brief, our audit determined that the Consortium violated the following grant
conditions:


- The Consortium was unable to demonstrate the redeployment of 8.6 officers (FTEs) to
    community policing under the MORE 95 grant, resulting in $214,834 of unsupported costs. 
- Charged $10,052 questioned costs to the MORE 95 grant because the grantee overstated
    equipment costs.


 
#####